                                                                                             OIG Recovery Act Monthly Report

  Monthly Update Report Data (sheet 2 of 4) Version 4.0a
           Reporting OIG: Amtrak ‐ OIG
       Month Ending Date: 11/30/2009

                                     FTE Working on Recovery
                                                                                                                                                                   Testimonies:
          Fiscal Year                   2009              2010                           Cumulative
           Newly Hired FTE 
                                         0.38                       0.67                     1.05                                                          Provided (monthly):          0
               (cumulative):

  FTE Funded by Recovery 
                                         0.38                       0.67                     1.05                                                       Provided (cumulative):          0
   Act Funds (cumulative):

         FTE Not Funded by 
        Recovery Act Funds               0.74                       0.64                     1.38
              (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations / 
                   Complaints                          Whistleblower Reprisal Allegations                               Investigations                                                                     Training / Outreach
                                                                                                                                                                     Reviews
                 Monthly Data                                       Monthly Data                                        Monthly Data                              Monthly Data                                Monthly Data

                                                                                                                                                                                                           Training Sessions 
                    Received:             0                                Received:          0               Opened (this month):                0      Initiated (this month):        1                                            0
                                                                                                                                                                                                                   Provided:

                                                                                                            Active (as of the end of                   In Process (as of the end 
                                                                           Accepted:          0                                                   2                                     5               Individuals Trained:         0
                                                                                                                        the month):                              of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                           Hours of Training 
                                                                                                                   Pending Decision:              0            Published Work           0                                            0
                                                                                                                                                                                                                  Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                         Outreach Sessions 
                                                                                                             Closed without Action:               0            Published Work           0                                            0
                                                                                                                                                                                                               Conducted:
                                                                                                                                                                       Products:
                                                                                                                       Accepted for                          Unpublished Work 
                                                                                                                                                  0                                     0
                                                                                                                       Prosecution:                                  Products*:
                                                                                                                Prosecution Denied:               0

                                                                                                           Referred for Alternative 
                                                                                                                                                  0
                                                                                                                        Resolution:
     Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                           Training Sessions 
                    Received:             0                                Received:          0              Closed without Action:               0          Published Work        0                                                 0
                                                                                                                                                                                                                   Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                         Accepted for 
                                                                           Accepted:          0                                                   0          Published Work        0                    Individuals Trained:         0
                                                                                                                         Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                          Unpublished Work                                 Hours of Training 
                                                                                                                Prosecution Denied:               0                                3                                                 0
                                                                                                                                                                   Products*:                                     Provided:

                                                                                                           Referred for Alternative                                                                      Outreach Sessions 
                                                                                                                                                  0          Cumulative Total:          3                                            0
                                                                                                                        Resolution:                                                                            Conducted:

                                                                                                                   Cumulative Total:              0


*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                AmtrakOIGRecoveryActFinancialandActivityRPTNov2009113009.xls
